                             UNITED STATES DEPARTMENT OF EDUCATION
                                     OFFICE OF INSPECTOR GENERAL

                                                                                                       Audit Services
                                                                                     Chicago/Kansas City Audit Region
                                                       March 15, 2007

                                                                               Control Number ED-OIG/A05G0034

Dr. Suellen Reed
State Superintendent of Public Instruction
Indiana Department of Education
Room 229, State House
Indianapolis, IN 46204-2798

Dear Dr. Reed:

This Final Audit Report, titled Indiana Schools’ Implementation of Schoolwide Plans Under
the No Child Left Behind Act of 2001, presents the results of our audit. Our audit objectives were
to determine whether (1) the Indiana Department of Education (IDE) and local educational
agencies (LEAs)1 had adequate processes in place to ensure that schoolwide schools had
schoolwide plans that included all required elements and that these schools implemented their
schoolwide plans, (2) schoolwide plans for selected schools included all required elements, and
(3) the selected schools implemented the elements included in their schoolwide plans. Our audit
covered the 2005-06 school year (July 1, 2005, through June 30, 2006).




                                                   BACKGROUND



The Elementary and Secondary Education Act of 1965, as amended by the No Child Left Behind
Act of 2001 (the Act), allows schools in an area with a poverty level of 40 percent or more, or in
which at least 40 percent of enrolled students are from low-income families, to operate
schoolwide programs. Schools operating schoolwide programs may use funds from Title I,
Part A, along with other federal, state, and local funds, to upgrade the entire educational program
in a school in order to improve the academic achievement of all students, particularly the lowest-
achieving students.

According to Section 1114(b)(2)(A) of the Act, 34 C.F.R § 200.26(b), and 34 C.F.R.
§ 200.27(a)(3),2 the school must develop a comprehensive schoolwide plan in consultation with
the LEA and its school support team or another technical assistance provider, and the school
community. The comprehensive plan must be based on data from a comprehensive needs
assessment or, for schools that have operated schoolwide programs for an extended period of
time, based on the state’s annual assessments and other indicators of academic achievement. The

1
  To test processes at LEAs, we reviewed Indianapolis Public Schools (Indianapolis) and the School City of East

Chicago (East Chicago).

2
  All regulatory citations are as of July 1, 2005.

           Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
                                                                                                      Final Report
ED-OIG/A05G0034 	                                                                                     Page 2 of 19
comprehensive plan must (1) describe how the school will implement the schoolwide program
components listed under 34 C.F.R. § 200.28, (2) describe how the school will use resources to
implement the schoolwide program components, (3) include a list of state educational agency,
LEA, and other federal programs for which the school will consolidate funds to use in its
schoolwide program, and (4) describe how the school will provide individual student academic
assessment results to parents.

According to 34 C.F.R. § 200.28, a schoolwide program must contain the following
components:3

    • 	 Schoolwide reform strategies that (1) provide opportunities for students to meet
        proficient and advanced state achievements standards; (2) use effective methods of
        instruction that are based on scientifically based research that strengthen the school’s core
        academic program, provide an enriched and accelerated curriculum, increase the amount
        and quality of learning time, include strategies for meeting the educational needs of
        historically underserved populations, and are consistent with, and are designed to
        implement, state and local improvement plans; and (3) include strategies that address the
        needs of all the students in the school, particularly the needs of the lowest achieving
        students, and address how the school will determine if such needs have been met.

    • 	 Strategies to provide instruction by highly qualified teachers, including strategies to
        (1) attract highly qualified teachers; (2) provide high quality and ongoing professional
        development for teachers, principals, and paraprofessionals; (3) devote sufficient
        resources to carry out professional development activities; and (4) include teachers in
        professional development activities on the use of academic assessments.

    • 	 Strategies to involve parents in the planning, review, and improvement of the schoolwide
        program plan, including having a parental involvement policy for the school.4

    • 	 Activities to ensure that students who experience difficulty reaching proficient or 

        advanced levels on academic assessments are provided with additional support. 


    • 	 Plans for assisting preschool children in the transition from early childhood programs to
        the schoolwide program.

The U.S. Department of Education allocated approximately $174 million in Title I funds to IDE
for the 2005-06 school year. In Indiana, 160 schools operated schoolwide programs during both
the 2004-05 and 2005-06 school years.




3
 Section 1114(b)(1) of the Act contains these components.

4
 Our review of parental involvement strategies focused only on strategies to involve parents in the planning, review,

and improvement of the schoolwide program plan.

                                                                                                       Final Report
ED-OIG/A05G0034                                                                                        Page 3 of 19


                                             AUDIT RESULTS



We found that (1) IDE and the two LEAs we reviewed (Indianapolis and East Chicago) had
adequate processes in place to ensure that schools implemented the elements included in their
schoolwide plans but did not ensure that schoolwide plans included all required elements, (2) the
two schools we reviewed did not include all required elements in their schoolwide plans, and
(3) the two schools we reviewed implemented the elements included in their schoolwide plans.

Both of the schoolwide plans we reviewed included a description of how the school would use
resources to implement components in its schoolwide program, schoolwide reform strategies,
and strategies to provide additional support to low-achieving students. In addition, the
schoolwide plan for the selected school in East Chicago included strategies to involve parents in
the planning, review, and improvement of the schoolwide plan and plans for assisting preschool
students in the transition from early childhood programs to the schoolwide program.5 However,
schoolwide plans for the two selected schools did not include all required elements.

In its comments to the draft report, IDE concurred with our finding and recommendations. The
comments are summarized at the end of the finding. The full text of IDE’s comments on the
draft report is included as an attachment to the report.

FINDING – IDE and Selected LEAs Did Not Ensure Schoolwide Plans Included All
          Required Elements

IDE and the LEAs we reviewed did not ensure that schoolwide plans included all elements
required by Section 1114(b)(2)(A) of the Act. See the following table:

                          Schoolwide Plan Elements Included in Each Schoolwide Plan
                                                            Indianapolis LEA –                 East Chicago LEA-
                    Required Element                       John Marshall Middle                   Eugene Field
              (See BACKGROUND Section)                            School                       Elementary School
1) Components Listed Under 34 C.F.R. § 200.28:
    Schoolwide Reform Strategies                                    Yes                                Yes
    Instruction by Highly Qualified Teachers6                       No                                 No
    Parental Involvement in Program Planning, Review,
                                                                    No                                 Yes
    and Improvement
    Additional Support                                              Yes                                Yes
    Transition For Preschool Students                               NA                                 Yes
2) Resources to Implement Components                                Yes                                Yes
3) Consolidating Program Funds                                      NA7                                NA7
4) Providing Academic Assessment Results to Parents                 No                                 No


5
  East Chicago’s was the only elementary school we visited. Therefore, it was the only school required to include
plans for assisting preschool students in the transition from early childhood programs to the schoolwide program.
6
  In each case where a school failed to meet this requirement, the deficiency was that it did not have in its
schoolwide plan a strategy to attract highly qualified teachers, which is required by Section 1114(b)(1)(E) of the Act
and 34 C.F.R. § 200.28(b)(1).
7
  A school is required to list the program funds it will consolidate in the schoolwide program only if it chooses to
consolidate funds. Because the school did not consolidate funds, this element was not applicable.
                                                                                     Final Report
ED-OIG/A05G0034                                                                      Page 4 of 19


Though the selected schools did not include all required elements in their schoolwide plans, we
concluded that the LEAs had processes in place that ensured that the objectives referred to by the
required elements were carried out by each selected school. In addition to implementing all
elements included in their schoolwide plans, schools also implemented the elements not included
in their schoolwide plans. Specifically, (1) both selected schools implemented strategies to
provide instruction by highly qualified teachers and provided parents with individual student
academic assessment results, and (2) the selected school in Indianapolis involved parents in the
planning, review, and improvement of the schoolwide program.

According to Section 1114(b)(1) of the Act and 34 C.F.R. § 200.28, a schoolwide plan must
include, among other things, strategies to provide instruction by highly qualified teachers and
strategies to involve parents in the planning, review, and improvement of the schoolwide plan.
In addition, Section 1114(b)(2)(A)(iv) of the Act and 34 C.F.R. § 200.28(c)(2)(ii) require a
schoolwide plan to describe how a school will provide individual student academic assessment
results to parents.

Prior to the 2005-06 school year, IDE did not have a process in place to monitor schoolwide
plans. During the 2005-06 school year, IDE implemented both on-site and desk review
monitoring of schoolwide plans. The monitoring checklists IDE used to review schoolwide
plans covered some of the required schoolwide program components listed under 34 C.F.R.
§ 200.28 but did not include all elements required by Section 1114(b)(2)(A) of the Act and
34 C.F.R. § 200.27(a)(3). Specifically, the checklists did not list that schoolwide plans must
(1) include a list of programs that will be consolidated under the schoolwide program,
(2) describe how the school will provide individual student academic assessment results to
parents, and (3) include strategies to involve parents in the planning, review, and improvement of
the schoolwide plan. Thus, while IDE reviewed schoolwide plans, it did not review the plans to
ensure that they included all required elements. In addition, the schoolwide plan guidance IDE
provided to LEAs did not include these three required elements. IDE was not aware that the Act
and implementing regulations required schoolwide plans to include these three elements.

IDE required schools to work with one of two state-approved technical assistance providers
during the schoolwide planning process. The technical assistance providers certified to IDE that
schoolwide plans for schools they worked with included all required components. IDE accepted
the technical assistance providers’ certifications without conducting its own review of the
schoolwide plans. The selected school in East Chicago worked with a state-approved technical
assistance provider while developing its 2005-06 schoolwide plan, and the provider certified that
it included all required components. However, as explained above, the schoolwide plan for the
selected school in East Chicago was deficient. Technical assistance providers might not be
aware of all schoolwide plan requirements.

Not ensuring that schoolwide plans include all required elements could potentially lead to
decreased implementation of required schoolwide plan elements and schoolwide plans that are
less likely to improve the academic achievement of all students.
                                                                                     Final Report
ED-OIG/A05G0034                                                                      Page 5 of 19
Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education require
IDE to

1.1 Ensure that both schools we reviewed revise their schoolwide plans to include all required
    elements;

1.2 Add the following required elements for schoolwide plans to its on-site and desk review
    monitoring checklists and to guidance provided to LEAs regarding schoolwide plans:
    (a) include a list of programs that will be consolidated under the schoolwide program,
    (b) describe how the school will provide individual student academic assessment results to
    parents, and (c) include strategies to involve parents in the planning, review, and
    improvement of the schoolwide plan;

1.3 Notify LEAs of the changes to the guidance and advise them to take action as appropriate;

1.4 Review, during its on-site visits to LEAs and desk reviews of LEAs’ documents, all elements
    of the LEAs’ schoolwide plans to determine whether (a) each LEA’s policies and procedures
    ensure that schoolwide plans include all the required elements, (b) those policies and
    procedures are being implemented, and (c) schoolwide plans include all required elements;
    and

1.5 Ensure that state-approved technical assistance providers are aware of all required elements
    for schoolwide plans.

Auditee Comments

IDE concurred with our finding and recommendations. In response to our recommendations,
IDE

   • 	 Stated it will meet with the Title I Program Administrator, school staff, and technical
       assistance provider for both schools to ensure that schoolwide plans include all required
       elements.

   • 	 Provided (1) revised on-site and desk review monitoring checklists that include the
       elements listed in Recommendation 1.2; and (2) guidance addressed to LEA Title I
       Program Administrators, per Recommendation 1.3, that (a) lists programs that can be
       consolidated under a schoolwide plan and (b) informs them of the elements listed in
       Recommendation 1.2. IDE stated it will present this information to LEAs at future
       meetings and will post it on its website.

   • 	 Stated it will continue to review all elements of LEAs’ schoolwide plans during on-site
       visits and desk reviews.

   • 	 Stated it has met with each of the four state-approved technical assistance providers and
       reviewed required elements of schoolwide plans and IDE’s on-site and desk review
       checklists.
                                                                                      Final Report
ED-OIG/A05G0034                                                                       Page 6 of 19


                 OBJECTIVES, SCOPE, AND METHODOLOGY



Our audit objectives were to determine whether (1) IDE and LEAs had adequate processes in
place to ensure that schoolwide schools had schoolwide plans that included all required elements
and that these schools implemented their schoolwide plans, (2) schoolwide plans for selected
schools included all required elements, and (3) the selected schools implemented the elements
included in their schoolwide plans. Our audit covered the 2005-06 school year (July 1, 2005,
through June 30, 2006).

To achieve our objectives, we interviewed officials and reviewed documents from IDE and the
two LEAs and schools we reviewed. For IDE, we (1) gained an understanding of policies and
procedures for ensuring that schoolwide plans included all required elements and were being
implemented and (2) reviewed guidance it provided to LEAs and schools regarding schoolwide
plans. For the two LEAs selected, we gained an understanding of how each LEA (1) helped its
schools develop and implement schoolwide plans and (2) monitored and evaluated schoolwide
plans. The documents we reviewed included

   1. IDE’s organizational chart;
   2. 	 Prior audit reports, including IDE’s Single Audit Act report, State of Indiana Single Audit
        Report, July 1, 2003, to June 30, 2004;
   3. 	 Guidance regarding schoolwide programs IDE provided to LEAs at various meetings,
        including its Title I meetings held in Fall 2005 and Spring 2006 and Title I New Program
        Administrator Workshops held on January 10, 2006, and June 1, 2006;
   4. 	 Documentation related to IDE’s monitoring reviews of LEAs and schools, including its
        on-site and desk review monitoring checklists, and on-site monitoring reports;
   5. 	 Schoolwide plans for the two selected schools for inclusion of the required elements
        listed in Section 1114(b)(2)(A) of the Act and 34 C.F.R. § 200.27(a)(3), including the
        components listed in 34 C.F.R. § 200.28; and
   6. 	 Documentation for the two selected schools related to the implementation of required
        schoolwide plan elements.

We selected LEAs and schools to visit. We identified the universe of LEAs in Indiana that had
at least one school (1) identified for improvement or otherwise showing weak academic results
for the 2005-06 school year and (2) that operated a schoolwide program during both the 2004-05
and 2005-06 school years. By including only those schools that operated schoolwide programs
during both of these school years, we ensured that our review included only schools that had
schoolwide programs at the time of our review and had completed one full year of their
schoolwide programs. From this universe of 18 LEAs, we judgmentally selected the 2 LEAs we
reviewed. Based on Title I allocations, we selected one large LEA (Indianapolis) and one
medium LEA (East Chicago). For each of these two LEAs, we randomly selected one school
meeting requirements (1) and (2) above. We randomly selected one of seven schools in
Indianapolis and one of three schools in East Chicago. For Indianapolis and East Chicago, we
selected John Marshall Middle School and Eugene Field Elementary School, respectively.

We performed our fieldwork at the offices of IDE in Indianapolis, Indiana; the two selected
LEAs and schools in Indiana; and our offices in Chicago, Illinois, and Kansas City, Missouri.
                                                                                     Final Report
ED-OIG/A05G0034                                                                      Page 7 of 19
We discussed the results of our audit with IDE officials on December 20, 2006. We did not use
computer-processed data to achieve our audit objectives. Our audit was performed in accordance
with generally accepted government auditing standards appropriate to the scope of review
described above.




                            ADMINISTRATIVE MATTERS 



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office ofInspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution ofthis audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Kerri L. Briggs
                              Acting Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,



                                             Richard J. Dowd
                                             Regional Inspector General
                                             for Audit

Attachment
                                             Attachment 

ED-OIG/A05G0034                             Page 8 of 19





    ATTACHMENT: IDE Comments to the Draft Report
                                                                                Attachment
ED-OIG/A05G0034                                                                Page 9 of 19
[Auditor’s Note: The hardcopy version of this letter had the IDE letterhead at the top of
                                    this page.]

February 15, 2007

Richard J. Dowd
Regional Inspector General for Audit
500 West Madison Street, Suite 1414
Chicago, Illinois 60661

Dear Mr. Dowd:

This letter is written in response to the January 17, 2007 Office of Inspector General
(OIG) Draft Audit Report titled: Indiana Schools’ Implementation of Schoolwide Plans
Under the No Child Left Behind Act of 2001. The audit covered the 2005-06 school year
and findings were based on the IDOE’s program administration and OIG site visits to
schoolwide programs operating in Indianapolis Public Schools and the School City of
East Chicago.

Indiana Department of Education (IDOE) staff has reviewed the findings contained in the
OIG draft report and concurs with its findings. To demonstrate full compliance with
federal laws and regulations, the IDOE has taken the following corrective action in
response to the specific OIG audit finding and the resultant five OIG recommendations
delineated below.

OIG Finding: IDE and Selected LEAs Did Not Ensure Schoolwide Plans Included All
Required Elements

OIG Recommendation #1: Ensure that both schools we reviewed revise their schoolwide
plans to include all required elements.

IDOE Response: IDOE staff will meet with the Title I Program Administrator, school
staff, and the technical assistance provider to review the revised schoolwide plans to
ensure that all components are now included. This review will be completed for both
schools by March 23, 2007.

OIG Recommendation #2: Add the following required elements for schoolwide plans to
its on-site and desk review monitoring checklists and to guidance provided to LEAs
regarding schoolwide plans: (a) include a list of programs that will be consolidated under
the schoolwide programs, (b) describe how the school will provide individual student
academic assessment results to parents, and (c) include strategies to involve parents in the
planning, review, and improvement of the schoolwide plan.

IDOE Response: IDOE has created a list of programs that can be consolidated under
the schoolwide plan. (See Attachment A) IDOE’s on-site and desk review monitoring
                                                                               Attachment
ED-OIG/A05G0034                                                              Page 10 of 19
checklists have been revised to include the elements listed in Recommendation #2. (See
Attachments B and C)

OIG Recommendation #3: Notify LEAs of the changes to the guidance and advise them
to take action as appropriate.

IDOE Response: IDOE notified LEAs of the changes to the guidance and advised them
to take action as appropriate on February 14, 2007. (See Attachment D) In addition,
this information will be presented during a PowerPoint presentation to all districts at the
Title I Administrative Meeting on February 26 and 27, 2007. All documents also will be
posted on Indiana’s Title I web site. Schools interested in participating in the 2007-08
schoolwide planning process will be advised of the guidance at an April 2007 meeting
conducted by the IDOE.

OIG Recommendation #4: Review, during its on-site visits to LEAs and desk reviews of
LEAs’ documents, all elements of the LEAs’ schoolwide plans to determine whether (a)
each LEA’s policies and procedures ensure that schoolwide plans include all the required
elements, (b) those polices and procedures are being implemented, and (c) schoolwide
plans include all required elements.

IDOE Response: IDOE will continue to review, during on-site visits to LEAs and
through desk reviews of LEA documents, all elements of the LEAs’ schoolwide plans.
IDOE conducts approximately three on-site monitoring reviews monthly. Within a three
year cycle, all districts with schoolwide programs participate in an IDOE desk review
monitoring process requiring documentation to support the district’s implementation of
all required program elements.

OIG Recommendation #5: Ensure that state-approved technical assistance providers are
aware of all required elements for schoolwide plans.

IDOE Response: IDOE met with each of the four state-approved technical assistance
providers and reviewed required elements for schoolwide plans as well as IDOE’s on-site
and desk review checklists.

If additional documentation is needed to support the IDOE’s full compliance with the
required elements of schoolwide programs, please do not hesitate to contact Linda Miller,
assistant superintendent, at lmiller@doe.state.in.us or by telephone at (317) 232-0519.

Sincerely,

/s/
Dr. Suellen Reed
State Superintendent of Public Instruction

Cc: 	Linda Miller, Assistant Superintendent, IDOE
    Lee Ann Kwiatkowski, Director of Title I, IDOE
                                                                              Attachment
ED-OIG/A05G0034                                                             Page 11 of 19

                       Attachment A 

      Consolidation of Funds in Schoolwide Programs 


Why should schoolwide programs consolidate funds?

● Allows school administrators and instructional staff to focus on
implementing strategies identified in the schoolwide plan and improving the overall
academic performance of the school.

● Removes barriers created by having separate academic programs.

● Greater flexibility to meet the needs of all students and families.

● Consolidates funds without requiring separate fiscal accounting records by program.

● Eliminates the need for monthly time and attendance logs from staff that work on a
single cost objective.

Which Federal education program funds can be consolidated in a schoolwide
program?

● Title I, Part A Improving the Academic Achievement of the Disadvantaged
● Title I, Part D, Subpart 2 Prevention and Intervention Programs for Children and Youth
Who Are Neglected, Delinquent, or At-Risk.
● Title II, Part A Improving Teacher Quality
● Title II, Part D Enhancing Education Through Technology
● Title III Limited English Proficient
● Title IV, Part A Safe and Drug Free Schools and Communities
● Title V Innovative Programs
● Title VI Rural and Low Income Schools
● Funds received from discretionary (competitive) grants, such as Even Start
● State and local funds

Which Federal education program funds can not be included or have restrictions?

● Migrant Education Program Funds
      -Restrictions:
      -School must consult with the parents of migratory children or organizations
      representing these parents, or both.
      -School must address the identified needs of migratory children that result from
      the effects of their migratory lifestyle or are needed to permit migratory children
      to participate effectively in school.
      -School must document that services to address those needs have been provided.

● Indian Education Program, Title VII, Part A, section 7115
       -Restrictions:
                                                                               Attachment
ED-OIG/A05G0034                                                              Page 12 of 19
       -The parent committee established under that program must approve the use of the
       funds for the schoolwide program.
       -The schoolwide program must be consistent with the purposes of the Indian
       Education Program

●	 IDEA funds
      -Restrictions:
      -The amount of funds consolidated may not exceed the amount received under
      IDEA, Part B for that fiscal year, divided by the number of children with
      disabilities in the jurisdiction of the LEA and multiplied by the number of
      children with disabilities participating in the schoolwide program.
      -All other requirements of IDEA, such as the rights and services afforded to
      individual children with disabilities, must still be met.

● Title I, Part B, Subpart 1 Reading First is excluded from consolidation.

In addition to restrictions listed, schoolwide programs must still meet program
requirements relating to:

● Health and safety requirements
● Civil rights
● Gender equity
● Student and parental participation and involvement
● Services to private school children
● Comparability of services
● Maintenance of effort
● Use of federal funds to supplement, not supplant non-federal funds

Procedures for Consolidating Schoolwide Funds

(In progress)
1. Determine the amount of federal funds to be allocated to each of the schoolwide
schools from all participating federal grants.

2. Develop a consolidated budget for each schoolwide school. The budget should
support the school's plan and the goals, objectives, and strategies needed to implement
the plan.

3. Record the budget for each schoolwide school in the accounting records of the school
district. Fund 400, Schoolwide Programs Fund, should be created for recording the
expenditures of all schoolwide schools.

 4. Allocate the consolidated monthly expenditures from Fund 400 to the individual
federal funds through posting a monthly journal entry using account _________ for each
school.
                                                                                         Attachment
ED-OIG/A05G0034                                                                        Page 13 of 19


Attachment B




                              No Child Left Behind (NCLB)

The IDOE Review Team will complete this document as a record of the On-Site Review of Title I,
Part A programs. It details the findings of the Review Team regarding the key focus areas
identified in this protocol. If any areas are found to be in partial compliance or out of compliance, a
finding will be listed on the report generated by the team from the IDOE. This report will be
completed within 30 business days of the visit to the LEA.

LEA Name:


Date of Visit: 


IDOE Team Members: 


LEA Personnel:       Superintendent: __________________________ 

Program Administrator: ______________________________ 


Other: 

______________________________________________________________________________
                                                                                   Attachment
ED-OIG/A05G0034                                                                  Page 14 of 19


Monitoring 6: Compliance with schoolwide program requirements. Section: 1114 and 34CFR Secs.
200.26-28



Evidence at LEA/School                                         YES NO Comments
1.   Show evidence that LEA provides guidance to
     schools about the development, implementation, and
     evaluation of schoolwide programs and program
     requirements
      Agendas, minutes, sign-in sheets for any
          meetings
      Copies of any kind of evaluation used
      Copies of notices of information
2.   Show evidence that LEA provides technical
     assistance and support to schools developing
     schoolwide programs in the areas of needs
     assessment, comprehensive planning,
     implementation, and evaluation
      PA’s participation in the SWP training provided
          by one of the providers approved by the IDOE
      Records of attendance at school meetings to
          implement schoolwide programs
3.   Show evidence that schoolwide programs are
     comprehensively developed, reviewed and evaluated
     annually, and revised accordingly
      Discussion of the process
      Copies of plans and revisions
4.   Explain how the district consolidates funds and, if so;
     how those funds are accounted for
      Ledger, worksheets, other
5.   Show evidence that services students receive are
     supplementary to instructional services required to be
     provided by the school
      Evidence in description of program – Review
          Program
6.   Show evidence that the SWP is being implemented in
     the school
      Strategies in plan match application
      Teacher interviews and classroom observation
      Surveys
      Schedules of extended-time activities
                                                                                   Attachment
ED-OIG/A05G0034                                                                  Page 15 of 19

Topic 6: Continued
Evidence at the School Level                                       YES   NO   Comments
Schoolwide Plan Components:
   1.   A comprehensive needs assessment of the whole
        school
   2. Implementation of schoolwide reform strategies that:
    Provide opportunities for all children to meet
        proficient and advanced levels of student academic
        achievement
    Use effective methods and instructional strategies
        that are based on scientifically based research that:
        strengthens the core academic program
    Increases the amount of learning time
    Includes strategies for serving underserved
        populations
    Includes strategies to address the needs of all
        children in the school, but particularly low achieving
        children and those at risk of not meeting state
        standards
    Address how the school will determine if those needs
        of the children have been met
    Are consistent with and are designed to implement
        state and local improvement plans, if any
   3. Highly qualified teachers in all core content area
        classes
   4. High quality and on-going professional development
        for teachers, principals, and paraprofessionals
   5. Strategies to attract high-quality, highly qualified
        teachers to this school
   6. Strategies to increase parental involvement, such as
        literacy services
   6a. Description how the school will provide individual
        academic assessment results to parents
    6b. Strategies to involve parents in the planning, review,
        and improvement of the schoolwide plan
   7. Plans for assisting preschool children in the
        transition from early childhood programs such as
        Head Start, Even Start, Early Reading First, or a state-
        run preschool program
   8. Opportunities and expectations for teachers to be
        included in the decision making related to the use of
        academic assessment results leading to the
        improvement of student achievement
   9. Activities and programs at the school level to ensure
        that students having difficulty mastering proficient
        and advanced levels of the academic achievement are
        provided with effective, timely additional assistance
   10. Coordination and integration of federal, state and
        local funds; and resources such as in-kind services
        and program components
   10a. List of programs that will be consolidated under the
        schoolwide plan (if applicable)
                                                                                                Attachment
ED-OIG/A05G0034                                                                               Page 16 of 19



Attachment C




                       Title I Schoolwide Plan Checklist
Directions: Review the Title I Schoolwide Plans prior to mailing to the IDOE to ensure that all requirements
listed below have been met. Insert the page number where each component can be found in the column to
the right. If a plan does not include all ten components, it is out of compliance with NCLB requirements and
will need to be adjusted.

Schoolwide Plan: Section 1114 (b) (2) Any school that operates a schoolwide program shall first develop
(or amend a plan for such a program that was in existence on the day before the date of enactment of the
NCLB Act of 2001), in consultation with the LEA and its school support team or other technical assistance
provider under section 1117, a comprehensive plan for reforming the total instructional program in the
school that:
     i. 	 Describes how the school will implement the components described below
     ii.	 Describes how the school will use resources under this part and other sources to implement the
           components
     iii.	 Includes a list of SEA programs and other federal programs that will be consolidated in the
           schoolwide program
     iv. 	 Describes how the school will provide individual student academic assessment results in a
           language the parents can understand, including an interpretation of those results, to the parents of
           a child who participates in the academic assessments required by the SEA plan.
                                                                                                     Attachment
     ED-OIG/A05G0034                                                                               Page 17 of 19

                         Components of a Schoolwide Plan*:                                       Found on Page #:
1.        A comprehensive needs assessment of the whole school
2. Implementation of schoolwide reform strategies that:
      Provide opportunities for all children to meet proficient and advanced levels of
          student academic achievement
      Use effective methods and instructional strategies that are based on scientifically
          based research that:
      Strengthens the core academic program
      Increases the amount of learning time
      Includes strategies for serving underserved populations
      Includes strategies to address the needs of all children in the school, but
          particularly low achieving children and those at risk of not meeting state standards
      Address how the school will determine if those needs of the children have been
          met
      Are consistent with and are designed to implement state and local improvement
          plans, if any
3. Highly qualified teachers in all core content area classes
4. High quality and on-going professional development for teachers, principals, and
     paraprofessionals
5. Strategies to attract high-quality, highly qualified teachers to this school
6. Strategies to increase parental involvement, such as literary services
6 a. Description how the school will provide individual academic assessment results to
     parents
6 b. Strategies to involve parents in the planning, review, and improvement of the
     schoolwide plan
7. Plans for assisting preschool children in the transition from early childhood programs
     such as Head Start, Even Start, Early Reading First, or a state-run preschool program
8. Opportunities and expectations for teachers to be included in the decision making
     related to the use of academic assessment results leading to the improvement of
     student achievement
9. Activities and programs at the school level to ensure that students having difficulty
     mastering proficient and advanced levels of the academic achievement are provided
     with effective, timely additional assistance
10. Coordination and integration of federal, state and local funds; and resources such as
     in-kind services and program components
10 a. A list of programs that will be consolidated under the schoolwide plan (if applicable)

        *Consolidated plans are encouraged and accepted
                                                                              Attachment
ED-OIG/A05G0034                                                             Page 18 of 19


Attachment D

                                   MEMORANDUM


To:       	    Title I Program Administrators

From:	         Lee Ann Kwiatkowski, Director
               Division of Compensatory Education

Re:       	    Schoolwide Programs

Date: 	        February 14, 2007

This memorandum is to inform you of recent updated federal guidance for schoolwide
programs and how that will affect the Title I monitoring system. As you know,
schoolwide programs have the flexibility to consolidate certain funding sources while
still maintaining the intent and purpose of Title I. The funding sources that may be
consolidated without restrictions are as follows:

● Title I, Part A Improving the Academic Achievement of the Disadvantaged
● Title I, Part D, Subpart 2 Prevention and Intervention Programs for Children and Youth
  Who Are Neglected, Delinquent, or At-Risk.
● Title II, Part A Improving Teacher Quality
● Title II, Part D Enhancing Education Through Technology
● Title III Limited English Proficient
● Title IV, Part A Safe and Drug Free Schools and Communities
● Title V Innovative Programs
● Title VI Rural and Low Income Schools
● Funds received from discretionary (competitive) grants, such as Even Start
● State and local dollars

The following funding sources may be consolidated, with restrictions.
● Migrant Education Program Funds
● Indian Education Program, Title VII, Part A, section 7115
● IDEA funds

Please refer to U.S. Department of Education Non-Regulatory Guidance for more
information on these restrictions, at
http://www.doe.state.in.us/TitleI/pdf/nrg_fiscalguid.pdf. Our office is also currently
working on a fiscal handbook to assist in procedures related to consolidating funds in
schoolwide programs.

Based on recent guidance from the Office of the Inspector General, we must ensure that
schoolwide programs have additional information outlined within the schoolwide plan.
                                                                                Attachment
ED-OIG/A05G0034                                                               Page 19 of 19
The additional components are: (1) a description of how the school will provide
individual academic assessment results to parents; (2) strategies to involve parents in the
planning, review, and improvement of the schoolwide plan; and (3) list of programs that
will be consolidated under the schoolwide plan (if applicable). We will look for these
components in both cycle and on-site monitoring of districts with schoolwide programs.

If you have questions or concerns regarding schoolwide programs, please contact our
office at 317-232-0540 or Toll Free at 877-418-7240.
